               Department of Veterans Affairs
               Office of Inspector General


                   Office of Healthcare Inspections

Report No. 13-03423-55


 Community Based Outpatient Clinic 

  and Primary Care Clinic Reviews 

                at 

       Southeast Louisiana 

   Veterans Health Care System 

      New Orleans, Louisiana 





February 4, 2014

                         Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations 

                    Telephone: 1-800-488-8244 

                   E-Mail: vaoighotline@va.gov

         (Hotline Information: www.va.gov/oig/hotline)

       CBOC and PCC Reviews at Southeast Louisiana Veterans Health Care System, New Orleans, LA



                                            Glossary
                       ADA        Americans with Disabilities Act
                       AUD        alcohol use disorder
                       CBOC       community based outpatient clinic
                       DWHP       designated women’s health provider
                       EHR        electronic health record
                       EOC        environment of care
                       FY         fiscal year
                       MH         mental health
                       MI         motivational interviewing
                       MM         medication management
                       NM         not met
                       OIG        Office of Inspector General
                       PACT       Patient Aligned Care Teams
                       PCC        primary care clinic
                       RN         Registered Nurse
                       VHA        Veterans Health Administration
                       VISN       Veterans Integrated Service Network
                       WH         women’s health




VA OIG Office of Healthcare Inspections
         CBOC and PCC Reviews at Southeast Louisiana Veterans Health Care System, New Orleans, LA



                                            Table of Contents 

                                                                                                                             Page 

Executive Summary ...................................................................................................              i


Objectives, Scope, and Methodology.......................................................................                          1

  Objectives ...............................................................................................................       1

  Scope......................................................................................................................      1

  Methodology ...........................................................................................................          1


Results and Recommendations ................................................................................                       3

  EOC ........................................................................................................................     3

  AUD ........................................................................................................................     5

  MM ..........................................................................................................................    6

  DWHP Proficiency ..................................................................................................              7


Appendixes
  A. CBOC Profiles and Services Provided ..............................................................                            8

  B. PACT Compass Metrics ....................................................................................                    10

  C. VISN Director Comments ..................................................................................                    14

  D. Facility Director Comments ...............................................................................                   15

  E. OIG Contact and Staff Acknowledgments .........................................................                              19

  F. Report Distribution .............................................................................................            20

  G. Endnotes ...........................................................................................................         21





VA OIG Office of Healthcare Inspections
        CBOC and PCC Reviews at Southeast Louisiana Veterans Health Care System, New Orleans, LA



                                Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected patient care
activities to determine whether the community based outpatient clinics (CBOCs) and
primary care clinics (PCCs) provide safe, consistent, and high-quality health care for our
veterans. We conducted site visits during the week of December 9, 2013, at the
following CBOCs which are under the oversight of the Southeast Louisiana Health Care
System and Veterans Integrated Service Network 16:

	   Bogalusa VA Outpatient Clinic, Bogalusa, LA

	   St. Johns VA Outpatient Clinic, Reserve, LA

Review Results: We conducted four focused reviews and had no findings for the
Designated Women’s Health Providers’ Proficiency review. However, we made
recommendations in the following three review areas:

Environment of Care. Ensure that:

	   The Bogalusa VA Outpatient Clinic designates handicap-accessible parking spaces
     as required by the Americans with Disabilities Act.

Alcohol Use Disorder. Ensure that CBOC/PCC:

	   Consistently complete diagnostic assessments for patients with a positive alcohol
     screen.

	   Registered Nurse Care Managers receive motivational interviewing and coaching
     training within 12 months of appointment to Patient Aligned Care Teams.

Medication Management. Ensure that CBOC/PCC staff:

	   Document that medication reconciliation was completed at each episode of care
     where the newly prescribed fluoroquinolone was administered, prescribed, or
     modified.

	   Document the evaluation of each patient’s level of understanding for the medication
     education provided.




VA OIG Office of Healthcare Inspections                                                       i
       CBOC and PCC Reviews at Southeast Louisiana Veterans Health Care System, New Orleans, LA


Comments
The VISN and Facility Directors agreed with the CBOC and PCC review findings and
recommendations and provided acceptable improvement plans. (See Appendixes
C and D, pages 14–18, for the full text of the Directors’ comments.) We will follow up on
the planned actions until they are completed.
 
 




                                                        JOHN D. DAIGH, JR., M.D. 

                                                      Assistant Inspector General for 

                                                          Healthcare Inspections 





VA OIG Office of Healthcare Inspections                                                      ii
          CBOC and PCC Reviews at Southeast Louisiana Veterans Health Care System, New Orleans, LA



                    Objectives, Scope, and Methodology 

Objectives
The CBOC and PCC reviews are an element of the OIG’s efforts to ensure that our
Nation’s veterans receive high-quality VA health care services. As such, the CBOC and
PCC reviews are recurring evaluations of selected primary care operations that focus on
patient care quality and the EOC. In general, our objectives are to:

	     Determine whether the CBOCs are compliant with EOC requirements.

	     Determine whether CBOCs/PCCs are compliant with VHA requirements in the care
       of patients with AUD.

	     Determine compliance with requirements for the clinical oversight and patient
       education of fluoroquinolones for outpatients.

	     Evaluate if processes are in place for DWHPs to maintain proficiency in WH.

Scope
To evaluate for compliance with requirements related to patient care quality and the
EOC, we conducted onsite inspections, reviewed clinical and administrative records,
and discussed processes and validated findings with managers and employees.
The review covered the following four activities:

	     EOC

	     AUD

	     MM

	     DWHP Proficiency

The scope of this review is limited to the established objectives. Issues and concerns
that come to our attention that are outside the scope of this standardized inspection will
be reviewed and referred accordingly.

Methodology
The onsite EOC inspections were only conducted at randomly selected CBOCs that had
not been previously inspected.a Details of the targeted study populations for the AUD,
MM, and DWHP Proficiency focused reviews are noted in Table 1.




a
    Includes 93 CBOCs in operation before March 31, 2013.


VA OIG Office of Healthcare Inspections                                                         1
        CBOC and PCC Reviews at Southeast Louisiana Veterans Health Care System, New Orleans, LA


Table 1. CBOC/PCC Focused Reviews and Study Populations
      Review Topic                                    Study Population
          AUD                  All CBOC and PCC patients screened within the study period
                               of July 1, 2012, through June 30, 2013, and who had a positive
                               AUDIT-C scoreb and all providers and RN Care Managers
                               assigned to PACT prior to October 1, 2012.
            MM                 All outpatients with an original prescription ordered for one of
                               the three selected fluoroquinolones from July 1, 2012, through
                               June 30, 2013.
    DWHP Proficiencies         All WH primary care providers designated as DWHPs as of
                               October 1, 2012, and who remained as DWHPs until
                               September 30, 2013.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

The review was done in accordance with OIG standard operating procedures for CBOC
and PCC reviews.




b
 The AUDIT-C is a brief alcohol screen that reliably identifies patients who are hazardous drinkers or have active
AUDs. Scores range from 0-12.


VA OIG Office of Healthcare Inspections                                                                              2
                CBOC and PCC Reviews at Southeast Louisiana Veterans Health Care System, New Orleans, LA



                          Results and Recommendations 

EOC
The purpose of this review was to evaluate whether CBOC managers have established and
maintained a safe and clean EOC as required.1

We reviewed relevant documents and conducted physical inspections of the Bogalusa and
St. Johns VA Outpatient Clinics. The table below shows the areas reviewed for this topic.
The area marked as NM did not meet applicable requirements and needed improvement.

Table 2. EOC

NM                      Areas Reviewed                                      Findings
       The CBOC’s location is clearly identifiable
       from the street as a VA CBOC.
       The CBOC has interior signage available that
       clearly identifies the route to and location of
       the clinic entrance.
 X     The CBOC is ADA accessible.                       There is no designated handicap-accessible
                                                         parking at the Bogalusa VA Outpatient Clinic as
                                                         required by ADA.
       The furnishings are clean and in good repair.
       The CBOC is clean.
       The CBOC maintains a written, current
       inventory of hazardous materials and waste
       that it uses, stores, or generates.
       An alarm system and/or panic buttons are
       installed in high-risk areas (e.g., MH clinic).
       Alcohol hand wash or soap dispenser and
       sink are available in the examination rooms.
       Sharps containers are secured.
       Safety needle devices are available.
       The CBOC has a separate storage room for
       storing medical (infectious) waste.
       The CBOC conducts fire drills (at least every
       12 months).
       Means of egress from the building are
       unobstructed.
       Access to fire alarm pull stations is
       unobstructed.
       Access to fire extinguishers is unobstructed.
       The CBOC has signs identifying the locations
       of fire extinguishers.
       Exit signs are visible from any direction.
       No expired medications were noted during the
       onsite visit.




VA OIG Office of Healthcare Inspections                                                                    3
                CBOC and PCC Reviews at Southeast Louisiana Veterans Health Care System, New Orleans, LA


NM                     Areas Reviewed                                     Findings
       All medications are secured from
       unauthorized access.
       Personally identifiable information is protected
       on laboratory specimens during transport so
       that patient privacy is maintained.
       Adequate privacy is provided to patients in
       examination rooms.
       Documents containing personally identifiable
       information are not lying around, visible, or
       unsecured.
       Window coverings provide privacy.
       The CBOC has a designated examination
       room for women veterans.
       Adequate privacy is provided to women
       veterans in the examination room.
       The information technology network
       room/server closet is locked.
       All computer screens are locked when not in
       use.
       Staff use privacy screens on monitors to
       prevent unauthorized viewing in high-traffic
       areas.
       EOC rounds are conducted semi-annually
       (at least twice in a 12-month period).
       The CBOC has an automated external
       defibrillator.
       Safety inspections are performed on the
       CBOC medical equipment in accordance with
       Joint Commission standards.
       The parent facility includes the CBOC in
       required education, training, planning, and
       participation leading up to the annual disaster
       exercise.
       The parent facility’s Emergency Management
       Committee evaluates CBOC emergency
       preparedness activities, participation in annual
       disaster exercise, and staff training/education
       relating to emergency preparedness
       requirements.

Recommendation

1. We recommended that the Bogalusa VA Outpatient Clinic designates handicap-accessible
parking spaces as required by the ADA.




VA OIG Office of Healthcare Inspections                                                               4
                CBOC and PCC Reviews at Southeast Louisiana Veterans Health Care System, New Orleans, LA


AUD
The purpose of this review was to determine whether the facility’s CBOCs and PCCs complied
with selected alcohol use screening and treatment requirements.2

We reviewed relevant documents. We also reviewed 40 EHRs and validated findings with key
managers and staff. The table below shows the areas reviewed for this topic. The areas
marked as NM did not meet applicable requirements and needed improvement.

Table 3. AUD

NM                    Areas Reviewed                                         Findings
       Alcohol use screenings are completed during
       new patient encounters, and at least annually.
 X     Diagnostic assessments are completed for           Staff did not complete diagnostic assessments
       patients with a positive alcohol screen.           for 8 (20 percent) of 40 patients who had
                                                          positive alcohol use screens.
       Education and counseling about drinking
       levels and adverse consequences of heavy
       drinking are provided for patients with positive
       alcohol screens and drinking levels above
       National Institute of Alcohol Abuse and
       Alcoholism guidelines.
       Documentation reflects the offer of further
       treatment for patients diagnosed with alcohol
       dependence.
       For patients with AUD who decline referral to
       specialty care, CBOC/PCC staff monitored
       them and their alcohol use.
       Counseling, education, and brief treatments
       for AUD are provided within 2 weeks of
       positive screening.
 X     CBOC/PCC RN Care Managers have                     We found that 16 (52 percent) of 31 RN Care
       received MI training within 12 months of           Managers did not receive MI training within 12
       appointment to PACT.                               months of appointment to PACT.
 X     CBOC/PCC RN Care Managers have                     We found that 22 (71 percent) of 31 RN Care
       received National Center for Prevention            Managers did not receive health coaching
       approved health coaching training (most likely     training within 12 months of appointment to
       TEACH for Success) within 12 months of             PACT.
       appointment to PACT.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

2. We recommended that CBOC/PCC staff consistently complete diagnostic assessments for
patients with a positive alcohol screen.

3. We recommended that CBOC/PCC RN Care Managers receive MI and health coaching
training within 12 months of appointment to PACTs.


VA OIG Office of Healthcare Inspections                                                                    5
                CBOC and PCC Reviews at Southeast Louisiana Veterans Health Care System, New Orleans, LA


MM
The purpose of this review was to determine whether appropriate clinical oversight and
education were provided to outpatients prescribed oral fluoroquinolone antibiotics.3

We reviewed relevant documents. We also reviewed 36 EHRs and validated findings with key
managers and staff. The table below shows the areas reviewed for this topic. The areas
marked as NM did not meet applicable requirements and needed improvement.

Table 4. Fluoroquinolones

NM                     Areas Reviewed                                         Findings
 X     Clinicians documented the medication              We did not find documentation that medication
       reconciliation process that included the          reconciliation included the newly prescribed
       fluoroquinolone.                                  fluoroquinolone in 15 (42 percent) of 36 patient
                                                         EHRs.
       Written information on the patient’s prescribed
       medications was provided at the end of the
       outpatient encounter.
       Medication counseling/education for the
       fluoroquinolone was documented in the
       patients’ EHRs.
 X     Clinicians documented the evaluation of each      Clinicians did not document the level of
       patient’s level of understanding for the          understanding for 17 (47 percent) of 36 patients.
       education provided.
       The facility complied with local policy.

Recommendations

4. We recommended that staff document that medication reconciliation be completed at each
episode of care where the newly prescribed fluoroquinolone is administered, prescribed, or
modified.

5. We recommended that staff document the evaluation of each patient’s level of
understanding for the medication education provided.




VA OIG Office of Healthcare Inspections                                                                      6
                CBOC and PCC Reviews at Southeast Louisiana Veterans Health Care System, New Orleans, LA


DWHP Proficiency
The purpose of this review was to determine whether the facility’s CBOCs and PCCs complied
with selected DWHP proficiency requirements.4

We reviewed the facility self-assessment, VHA and local policies, Primary Care Management
Module data, and supporting documentation for DWHPs’ proficiencies. The table below shows
the areas reviewed for this topic. The facility generally met requirements. We made no
recommendations.

Table 5. DWHP Proficiency

NM                    Areas Reviewed                                      Findings
       CBOC and PCC DWHPs maintained
       proficiency requirements.
       CBOC and PCC DWHPs were designated
       with the WH indicator in the Primary Care
       Management Model.




VA OIG Office of Healthcare Inspections                                                               7
                                                     CBOC and PCC Reviews at Southeast Louisiana Veterans Health Care System, New Orleans, LA
                                                                                                                                 Appendix A


                                                                     CBOC Profiles 

This review evaluates the quality of care provided to veterans at all of the CBOCs under the parent facility’s oversight.c
The table below provides information relative to each of the CBOCs.

                                                                                     Uniquesd                                 Encountersd

                               Station                     CBOC
        Location     State                  Localitye                  MHg        PCh       Otheri      All       MHg        PCh      Otheri       All
                                  #                         Sizef
    Baton Rouge       LA        629BY        Urban       Very Large    2,770     8,393      11,214     11,969    17,703     23,040    75,548     116,291
    Houma             LA        629GA        Urban        Mid-Size     1,470     3,684      3,023      4,166      7,502      6,631    8,139      22,272
    Slidell           LA        629GC        Urban        Mid-Size     1,066     2,809      2,781      3,956      5,433      6,353    16,019     27,805
    Hammond           LA        629GB        Urban        Mid-Size     1,225     2,654      2,645      3,498      5,625      7,033    9,600      22,258
    St. Johns         LA        629GD        Rural        Mid-Size      595      1,507      1,394      2,025      4,345      3,499    5,658      13,502
    Bogalusa          LA        629GF        Rural         Small        262      1,027       585       1,073      1,343      2,254    1,224       4,821
    Franklin          LA        629GE        Rural         Small        180       715        562        795        865       1,596    1,427       3,888




c
  Includes all CBOCs in operation before March 31, 2013. 

d
   Unique patients and Total Encounters – Source: MedSAS outpatient files; completed outpatient appointments indicated by a valid stop code during the 

July 1, 2012, through June 30, 2013, timeframe at the specified CBOC. 

e
  http://vaww.pssg.med.va.gov/PSSG/DVDC/FY2013_Q1_VAST.xlsx 

f
  Based on the number of unique patients seen as defined by VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics, 

September 11, 2008, the size of the CBOC facility is categorized as very large (> 10,000), large (5,000-10,000), mid-size (1,500-5,000), or small (< 1,500).

g
  Mental Health includes stop codes in the 500 series, excluding 531 and 563, in the primary position. 

h
  Primary Care includes the stop code list in the primary position: 323 – Primary Care; 322 – Women’s Clinic; 348 – Primary Care Group; 350 – Geriatric 

Primary Care; 531 – MH Primary Care Team-Individual; 563 – MH Primary care Team-Group; 170 – Home Based Primary Care (HBPC) Physician. 

i
  All other non-Primary Care and non-MH stop codes in the primary position.



VA OIG Office of Healthcare Inspections                                                                                                                    8
          CBOC and PCC Reviews at Southeast Louisiana Veterans Health Care System, New Orleans, LA


                                  CBOC Services Provided 

In addition to primary care integrated with WH and MH care, the CBOCs provide various
specialty care, ancillary, and tele-health services. The following table lists the services
provided at each CBOC.j

                                                                                               Tele-Health
          CBOC           Specialty Care Servicesk            Ancillary Servicesl
                                                                                                Servicesm
Baton Rouge                       Dental                         Laboratory                 Tele Primary Care
                               Dermatology                     Rehabilitation
                                 Podiatry                        Radiology
                              Ophthalmology                 Prosthetics/Orthotics
                             Gastroenterology                    Audiology
                                Neurology                   Respiratory Therapy
                                                          Computer Tomography
                                                         Diabetic Retinal Screening
                                                                  Nutrition
                                                         Pulmonary Function Test
                                                                Social Work
                                                                              n
                                                             MOVE! Program
Houma                          Dermatology                       Radiology                  Tele Primary Care
                                                                  Nutrition
                                                         Diabetic Retinal Screening
                                                              MOVE! Program
Slidell                   Obstetrics/Gynecology          Diabetic Retinal Screening         Tele Primary Care
                              Dermatology                         Nutrition
Hammond                       Dermatology                        Audiology                  Tele Primary Care
                                                                  Nutrition
                                                                Social Work
                                                              MOVE! Program
                                                         Diabetic Retinal Screening
St. Johns                      Orthopedics                      Social Work                 Tele Primary Care
                               Dermatology                    MOVE! Program
                                                                  Nutrition
Bogalusa                             ---                 Diabetic Retinal Screening         Tele Primary Care

Franklin                             ---                              ---                   Tele Primary Care

 




j
  Source: MedSAS outpatient files; the denoted Specialty Care and Ancillary Services are limited to Primary Clinic 

Stops with a count ≥ 100 encounters during the July 1, 2012, through June 30, 2013, timeframe at the specified 

CBOC.

k
  Specialty Care Services refer to non-Primary Care and non-MH services provided by a physician.

l
  Ancillary Services refer to non-Primary Care and non-MH services that are not provided by a physician. 

m
  Tele-Health Services refer to services provided under the VA Telehealth program (http://www.telehealth.va.gov/) 

n
  VHA Handbook 1120.01, MOVE! Weight Management Program for Veterans, March 31, 2011. 


VA OIG Office of Healthcare Inspections                                                                         9
                                                                       CBOC and PCC Reviews at Southeast Louisiana Veterans Health Care System, New Orleans, LA
                                                                                                                                                   Appendix B


                                                                              PACT Compass Metrics
                                                         FY 2013 Average 3rd Next Available in PC Clinics
                                 35.0
                                 30.0
      Average Number of Days




                                 25.0
                                 20.0
                                 15.0
                                 10.0
                                  5.0
                                  0.0
                                                      New Orleans   Baton Rouge                   Hammond
                                          VHA Total                               Houma (629GA)              Slidell (629GC)   St. John (629GD)   Franklin (629GE)   Bogalusa (629GF)
                                                         (629)        (629BY)                      (629GB)
                               OCT FY13     14.6         21.3           2.7            1.9           4.5           4.5               2.4                1.4                5.3
                               NOV FY13     15.2         12.8           4.6            4.1           5.5           6.5               3.1                3.5                4.2
                               DEC FY13     13.8         17.3           4.9            2.8           3.9           7.5               2.5                3.2                4.9
                               JAN FY13     14.0         14.1           4.2            4.1           3.6          18.0               1.5                2.4                6.4
                               FEB FY13     14.8         15.9           6.3            4.0           3.6          18.5               1.9                2.4                9.1
                               MAR FY13     13.3         14.6          11.4            4.0           5.4          21.5               1.3                2.6                3.5
                               APR FY13     14.4         28.4           6.0            4.2           8.2          19.4               1.8                1.8                2.3
                               MAY FY13     16.0         19.8           4.7            5.9           9.5          21.8               3.5                3.8                3.8
                               JUN FY13     14.2         12.7          16.5            2.6          13.5          18.4               1.6                2.9                1.3
                               JUL FY13     14.6         13.0          13.8            4.1          12.4          14.4               1.9                4.9                1.8
                               AUG FY13     15.7         14.1           5.4            6.4          17.0          15.3               4.7                4.8                4.9
                               SEP FY13     13.4         18.0           2.4            8.4          32.4          13.6               1.4                1.1                1.8




Data Definition.5 The average waiting time in days until the next third open appointment slot for completed primary care appointments in stop code 350.
 Completed appointments in stop code 350 for this metric include completed appointments where a 350 stop code is in the primary position on the appointment or
 one of the telephone stop codes is in the primary position, and 350 stop code is in the secondary position. The data is averaged from the national to the division
 level.


 VA OIG Office of Healthcare Inspections                                                                                                                                                10
                                                                              CBOC and PCC Reviews at Southeast Louisiana Veterans Health Care System, New Orleans, LA



                                                               FY 2013 Established PC Prospective Wait Times 7 Days
                                            100%



                                            80%
        Percentage of Patients Scheduled 
         Within 7 Days of Desired Date




                                            60%



                                            40%



                                            20%



                                             0%
                                                   OCT FY13   NOV FY13   DEC FY13   JAN FY13   FEB FY13   MAR FY13   APR FY13   MAY FY13   JUN FY13   JUL FY13   AUG FY13   SEP FY13
        VHA Total                                   83.5%      81.1%      82.4%      82.6%      83.2%      83.6%      84.0%      84.0%      84.1%      84.3%      84.5%      84.7%
        New Orleans (629)                           93.5%      92.6%      94.0%      93.3%      93.8%      94.2%      94.7%      95.3%      94.7%      95.4%      95.3%      93.1%
        Baton Rouge (629BY)                         92.3%      93.4%      92.6%      90.4%      86.2%      83.4%      91.3%      96.2%      97.4%      95.7%      91.9%      93.5%
        Houma (629GA)                               83.4%      92.2%      89.7%      85.5%      91.6%      90.8%      93.0%      92.7%      91.4%      93.1%      91.4%      95.6%
        Hammond (629GB)                             80.9%      81.3%      85.8%      90.1%      90.2%      89.9%      88.1%      81.8%      85.5%      92.8%      93.5%      93.9%
        Slidell (629GC)                             89.1%      97.1%      94.3%      78.3%      90.5%      88.9%     100.0%      93.8%      85.2%      76.2%      90.9%      85.7%
        St. John (629GD)                           100.0%      100.0%    100.0%     100.0%     100.0%      100.0%    100.0%      100.0%    100.0%     100.0%      100.0%    100.0%
        Franklin (629GE)                           100.0%      100.0%    100.0%     100.0%     100.0%      91.7%     100.0%      100.0%    100.0%     100.0%      100.0%    100.0%
        Bogalusa (629GF)                           100.0%      100.0%    100.0%     100.0%     100.0%      100.0%                50.0%




Data Definition.5 The percent of patients scheduled within 7 days of the desired date. Data source is the Wait Times Prospective Wait Times measures.
The total number of scheduled appointments for primary care-assigned patients in PCCs 322, 323 and 350. Data is collected twice a month on the 1st and the
15th. Data reported is for the data pulled on the 15th of the month. There is no FY to date score for this measure. Blank cells indicate the absence
of reported data.


VA OIG Office of Healthcare Inspections                                                                                                                                                11
                                                                                             CBOC and PCC Reviews at Southeast Louisiana Veterans Health Care System, New Orleans, LA


                                                                                  FY 2013 Ratio of ER Encounters While on Panel to
                                                                                   PC Encounters While on Panel (FEE ER Included)
                                                                 36%


                  Percentage of ER Encounters to PC Encounters
                                                                 34%
                                                                 32%
                                                                 30%
                                                                 28%
                                                                 26%
                                                                 24%
                                                                 22%
                                                                 20%
                                                                 18%
                                                                 16%
                                                                 14%
                                                                 12%
                                                                 10%
                                                                  8%
                                                                  6%
                                                                  4%
                                                                  2%
                                                                  0%
                                                                       OCT FY13   NOV FY13   DEC FY13   JAN FY13   FEB FY13   MAR FY13   APR FY13   MAY FY13   JUN FY13   JUL FY13   AUG FY13   SEP FY13
            VHA Total                                                   16.3%      16.3%      16.4%      16.3%      16.3%      16.3%      16.1%      16.1%      16.0%      15.9%      15.8%      15.7%
            New Orleans (629)                                           31.9%      32.1%      32.8%      34.6%      35.1%      35.2%      35.2%      34.8%      34.8%      34.6%      34.0%      32.8%
            Baton Rouge (629BY)                                         4.5%        4.5%      4.5%       4.4%       4.5%        4.6%      4.4%        4.1%      3.8%       3.5%        3.3%      3.1%
            Houma (629GA)                                               5.7%        5.9%      5.9%       5.7%       5.8%        6.0%      5.8%        6.1%      6.0%       6.0%        5.9%      6.3%
            Hammond (629GB)                                             7.4%        7.3%      6.9%       6.8%       6.8%        6.8%      6.9%        6.8%      6.6%       6.4%        6.8%      5.7%
            Slidell (629GC)                                             9.0%        9.1%      9.6%       9.9%       10.1%      10.5%      9.8%        9.4%      8.7%       8.7%        8.5%      8.2%
            St. John (629GD)                                            11.7%      11.8%      12.0%      12.1%      12.0%      12.4%      12.3%      12.1%      12.2%      11.6%      11.3%      11.1%
            Franklin (629GE)                                            4.2%        4.2%      4.5%       4.3%       4.2%        4.3%      4.7%        4.5%      4.1%       3.6%        3.9%      3.9%
            Bogalusa (629GF)                                            7.4%        7.4%      7.6%       7.2%       7.0%        6.6%      5.3%        4.7%      4.4%       4.2%        3.8%      3.7%




Data Definition.5 This is a measure of where the patient receives his or her primary care and by whom. A low percentage is better. The formula is the total
VHA ER/Urgent Care/FEE ER Encounters WOP (including FEE ER visits) divided by the number of primary care encounters WOP with the patient’s
assigned primary care (or associate) provider plus the total VHA ER/Urgent Care/FEE ER Encounters (including FEE ER visits) WOP plus the number of
primary care encounters WOP with a provider other than the patient’s primary care provider/associate provider.
VA OIG Office of Healthcare Inspections                                                                                                                                                                    12
                                                   CBOC and PCC Reviews at Southeast Louisiana Veterans Health Care System, New Orleans, LA



                                       FY 2013 2‐Day Contact Post Discharge Ratio
      100%
        90%
        80%
        70%
        60%
        50%
        40%
        30%
        20%
        10%
         0%
                               New Orleans     Baton Rouge                     Hammond                                                          Bogalusa
                  VHA Total                                  Houma (629GA)                  Slidell (629GC) St. John (629GD) Franklin (629GE)
                                  (629)          (629BY)                        (629GB)                                                         (629GF)
     OCT FY13      52.8%           55.8%          74.4%          61.1%           62.5%          21.4%            33.3%           100.0%          60.0%
     NOV FY13      52.9%           55.4%          78.9%          71.4%           55.6%          15.4%            40.0%           100.0%          40.0%
     DEC FY13      51.5%           47.0%          75.9%          91.7%           64.7%          56.3%            20.0%            80.0%          20.0%
     JAN FY13      57.2%           54.6%          81.8%          83.3%           76.2%          90.5%            80.0%           100.0%         100.0%
     FEB FY13      60.4%           55.6%          64.7%          75.0%           56.3%          83.3%            71.4%                          100.0%
     MAR FY13      64.4%           61.1%          75.6%          100.0%          76.5%          88.9%            57.1%           100.0%         100.0%
     APR FY13      65.5%           45.5%          86.5%          90.0%           85.7%          75.0%            28.6%           100.0%         100.0%
     MAY FY13      66.1%           52.7%          60.6%          90.0%           61.9%          69.2%            77.8%           100.0%         100.0%
     JUN FY13      70.1%           48.9%          67.7%          45.5%           63.6%          77.8%            66.7%           100.0%          66.7%
     JUL FY13      71.1%           50.8%          80.0%          100.0%          69.2%          66.7%            75.0%           100.0%          83.3%
     AUG FY13      72.7%           48.7%          80.0%          100.0%          92.3%          70.0%            50.0%            50.0%         100.0%
     SEP FY13      68.9%           67.7%          88.9%          90.9%           83.3%          83.3%            66.7%           100.0%         100.0%




Data Definition.5 Total Discharges Included in 2-day Contact Post Discharge Ratio: The total VHA and FEE Inpatient Discharges for assigned primary care
patients for the reporting timeframe. Discharges resulting in death and discharges where a patient is readmitted within 2 days of discharge are excluded from
this metric. The blank cell indicates the absence of reported data.

VA OIG Office of Healthcare Inspections                                                                                                                    13
       CBOC and PCC Reviews at Southeast Louisiana Veterans Health Care System, New Orleans, LA
                                                                                   Appendix C
                              VISN Director Comments


               Department of
               Veterans Affairs                                Memorandum


           Date:       January 8, 2014

          From:        Director, South Central VA Health Care Network (10N16)

       Subject: 	      CBOC and PCC Reviews of the Southeast Louisiana
                       Veterans Health Care System, New Orleans, LA

             To:       Director, Dallas Office of Healthcare Inspections (54DA)

                       Director, Management Review Service
                       (VHA 10AR MRS OIG CAP CBOC)

       1. The South Central VA Health Care Network (VISN 16) has reviewed
          and concurs with the CBOC draft report submitted by the Southeast
          Louisiana Veterans Health Care System, New Orleans, LA.

       2. If you have questions regarding the information submitted, please
          contact Reba T. Moore, VISN 16 Accreditation Specialist at
          (601) 206-7022.




VA OIG Office of Healthcare Inspections                                                     14
       CBOC and PCC Reviews at Southeast Louisiana Veterans Health Care System, New Orleans, LA
                                                                                   Appendix D
                            Facility Director Comments



               Department of
               Veterans Affairs 	                              Memorandum


           Date:       January 6, 2014

          From: 	      Director, Southeast Louisiana Veterans Health Care System
                       (629/00)

       Subject: 	      CBOC and PCC Reviews of the Southeast Louisiana
                       Veterans Health Care System, New Orleans, LA

             To:       Director, South Central VA Health Care Network (10N16)

       In response to the New Orleans CBOC Draft Report, the Southeast
       Louisiana Veterans Health Care System concurs with the findings, and
       submits the attached comments as per the instructions.




VA OIG Office of Healthcare Inspections                                                     15
       CBOC and PCC Reviews at Southeast Louisiana Veterans Health Care System, New Orleans, LA


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that the Bogalusa VA Outpatient Clinic
designates handicap-accessible parking spaces as required by the ADA.

Concur

Target date for completion: January 31, 2014

Facility response: A determination of responsibility for placement of the “striping” lines
for the anterior parking space between Valor Healthcare and the City of Bogalusa,
Louisiana revealed that it is the responsibility of Valor Healthcare to comply with the
recommendation.

A Valor Healthcare contractor is set to evaluate, plan and start the project on
January 6, 2014 and there is written confirmation of a completion date on or before
January 31, 2014.

Recommendation 2. We recommended that CBOC/PCC staff consistently complete
diagnostic assessments for patients with a positive alcohol screen.

Concur

Target date for completion: April 1, 2014

Facility response: Every 4 weeks Quality Management will run a CPRS report of
50 positive Audit C Screens and a 2nd corresponding CPRS report with results of the
Audit C assessment for each of the same 50 patients. In the event there are less than
50 positive Audit-C screens reported in a specific 4-week period, QM will audit the total
number of positive Audit C screens available in the report. The audits will be performed
and monitored monthly until 95% compliance is reached.
Assessment performed on patients who screened positive For Audit C per month
Positive Audit C screenings performed per month                                =   % Compliance

Recommendation 3. We recommended that CBOC/PCC RN Care Managers receive
MI and health coaching training within 12 months of appointment to PACTs.

Concur

Target date for completion: April 1, 2014




VA OIG Office of Healthcare Inspections                                                       16
       CBOC and PCC Reviews at Southeast Louisiana Veterans Health Care System, New Orleans, LA


Facility Response: RN Supervisory Managers in all SLVHCS clinics will include this
training as a component of new employee orientation for RN Care Managers assigned
unit/PACT team within the first 6 months of orientation for all RN Care Managers.

Once the RN Supervisory Manager assigns a RN Care Manager to the TEACH course,
the employee will be directed to go into Talent Management System (TMS) and select
the date of the course into which they wish to be scheduled. The employee is
scheduled into the class by Work Force Development Staff, who then “assigns” it to the
employee in TMS.

By assigning the training in TMS, a deficiency report can be tracked as a basis for
compliance. The deficiency report will be sent to the Chiefs of Ambulatory and
Primary Care and the Quality Manager monthly to ensure staff who are deficient receive
the training.

Currently 34 out of 47, or 72.3% completed MI Training, and 23 out of 47, or 48.9%
completed TEACH.

QM will monitor the TMS compliance report for TEACH and MI monthly to ensure 100%
compliance.
Number of RN Care Managers requiring MI and TEACH training monthly
Number of RN Care Managers with MI and TEACH training completed monthly        =   % Compliance

Recommendation 4.         We recommended that staff document that medication
reconciliation be completed at each episode of care where the newly prescribed
fluoroquinolone is administered, prescribed, or modified.

Concur

Target date for completion: June 1, 2014

Facility response: Quality Management will review monthly 100% of Fluoroquinolones
prescribed. Compliance will be determined based on the number of documented
medication reconciliations over the number of Fluoroquinolones prescribed.
The monitoring will continue until at least 90% are in compliance.

The current CPRS template is being revised to include a clinical reminder for medication
reconciliation where newly prescribed Fluoroquinolone is administered, prescribed, or
modified allowing the provider to indicate that Medication Reconciliation for
Fluoroquinolones has occurred.
Number of documented medication reconciliation for newly
administered/prescribed/modified Fluoroquinolone’s per month
Number of newly administered/prescribed/modified Fluoroquinolone’s per month   =   % Compliance

Recommendation 5. We recommended that staff document the evaluation of each
patient’s level of understanding for the medication education provided.



VA OIG Office of Healthcare Inspections                                                       17
       CBOC and PCC Reviews at Southeast Louisiana Veterans Health Care System, New Orleans, LA


Concur

Target date for completion: June 1, 2014

Facility response: The current CPRS template is being revised to include a clinical
reminder for patient level of understanding where newly prescribed Fluoroquinolone’s
are administered, prescribed, or modified. The template will allow the provider to
indicate that medication reconciliation and patient level of understanding of the
education provided has been assessed and recorded for Fluoroquinolones.
Documentation of provider assessment of patient
level of understanding for the medication prescribed
Number of newly prescribed Fluoroquinolones                                 =   % Compliance




VA OIG Office of Healthcare Inspections                                                     18
       CBOC and PCC Reviews at Southeast Louisiana Veterans Health Care System, New Orleans, LA
                                                                                   Appendix E


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Rose Griggs, MSW, LCSW, Team Leader
Contributors            Larry Ross, MS
Other                   Lin Clegg, PhD
Contributors            Matt Frazier, MPH
                        Zhana Johnson, CPA
                        Jeff Joppie, BS
                        Misti Kincaid, BS
                        Cathleen King, MHA, CRRN
                        Jennifer Reed, RN, MSHI
                        Victor Rhee, MHS
                        Patrick Smith, M. Stat
                        Marilyn Stones, BS
                        Mary Toy, RN, MSN
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                     19
       CBOC and PCC Reviews at Southeast Louisiana Veterans Health Care System, New Orleans, LA
                                                                                   Appendix F

                                   Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, South Central VA Health Care Network (10N16)
Director, Southeast Louisiana Veterans Health Care System (629/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Mary L. Landrieu, David Vitter
U.S. House of Representatives: Charles W. Boustany Jr., William Cassidy,
 Vance McAllister, Cedric Richmond, Steve Scalise


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                     20
          CBOC and PCC Reviews at Southeast Louisiana Veterans Health Care System, New Orleans, LA
                                                                                      Appendix G

                                                   Endnotes 


1
    References used for the EOC review included:
	 US Access Board, Americans with Disabilities Act Accessibility Guidelines (ADAAG), September 2, 2002.
	 US Department of Health and Human Services, Health Insurance Portability and Accountability Act, The
     Privacy Rule, August 14, 2002.
	 US Department of Labor, Occupational Safety and Health Administration, Laws and Regulations.
	 US Department of Labor, Occupational Safety and Health Administration, Guidelines for Preventing Workplace
   Violence, 2004.
	 Joint Commission, Joint Commission Comprehensive Accreditation and Certification Manual, July 1, 2013.
	 VA Directive 0324, Test, Training, Exercise, and Evaluation Program, April 5, 2012.
	 VA Directive 0059, VA Chemicals Management and Pollution Prevention, May 25, 2012.
	 VA Handbook 6500, Risk Management Framework for VA Information System, September 20, 2012.
	 VHA Center for Engineering, Occupational Safety, and Health, Emergency Management Program Guidebook,
   March 2011.
	 VHA Center for Engineering, Occupational Safety, and Health, Online National Fire Protection Association
   Codes, Standards, Handbooks, and Annotated Editions of Select Codes and Standards, July 9, 2013.
	 VHA Deputy Under Secretary for Health for Operations and Management, Memorandum: Environmental
   Rounds, March 5, 2007.
	 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
	 VHA Directive 2012-026, Sexual Assaults & Other Defined Public Safety Incidents in VHA Facilities,
   September 27, 2012.
	 VHA Handbook 1006.1, Planning and Activating Community-Based Outpatient Clinics, May 19, 2004.
	 VHA Handbook 1330.01, Health Care Services for Women Veterans, May 21, 2010.
	 VHA Handbook 1850.05, Interior Design Operations and Signage, July 1, 2011.
2
  References used for the AUD review included:
	 National Center for Health Promotion and Disease Prevention (NCP) and Office of Veteran Health Education
   and Information (NVEI), Patient Education: TEACH for Success, 2010. Retrieved from
   http://www.prevention.va.gov/HealthPOWER_Prevention_News_Summer_2010_VHEI.asp on
   January 17, 2014.
	 VHA Handbook 1120.02, Health Promotion Disease Prevention (HPDP) Program, July 5, 2012.
	 VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics,
   September 11, 2008.
3
  References used for the Medication Management review included:
	 VHA Directive 2011-012, Medication Reconciliation, March 9, 2011.
	 VHA Directive 2012-011, Primary Care Standards, April 11, 2012.
	 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006.
	 VHA Handbook 1108.07, Pharmacy General Requirements, April 17, 2008.
	 Joint Commission, Joint Commission Comprehensive Accreditation and Certification Manual, July 1, 2013.
4
  References used for the DWHP review included:
	 VHA Deputy Under Secretary for Health for Operations and Management, Memorandum: Health Care Services
   for Women Veterans, Veterans Health Administration (VHA) Handbook 1330.01; Women’s Health (WH)
   Primary Care Provider (PCP) Proficiency, July 8, 2013.
	 VHA Handbook 1330.01 Health Care Services for Women Veterans, May 21, 2010.
	 VHA Handbook 1100.19, Credentialing and Privileging, November 14, 2008.
5
  Reference used for PACT Compass data graphs:
	 Department of Veterans’ Affairs, Patient Aligned Care Teams Compass Data Definitions, August 29, 2013.




VA OIG Office of Healthcare Inspections                                                                    21
